HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title
IV-D Children in North Carolina Under the State Children Health Insurance Program,"(A-04-02-00014)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in
North Carolina Under the State Children Health Insurance Program," (A-04-02-00014)
August 20, 2004
Complete
Text of Report is available in PDF format (626 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that North Carolina has an opportunity to increase enrollment in the State
Children’s Health Insurance Program (SCHIP) and have noncustodial parents pay a portion of the associated premiums.  Based
on a statistical sample, we estimated that 30,809 Title IV-D children would have been eligible to receive SCHIP benefits
from June 1, 2001 through May 31, 2002.  The noncustodial parents of 20,637 of these children could have contributed
$16.4 million toward the $24.9 million in premiums that would have been incurred if the children had been enrolled.  We
also determined that 8,776 Title IV-D children received SCHIP benefits during the audit period.  An estimated 3,686
of these children had noncustodial parents who could have contributed $1.9 million toward the $3.6 million in SCHIP premiums
paid on behalf of their children.  We recommended that North Carolina take appropriate steps to recover SCHIP premiums
from noncustodial parents with medical support orders and the ability to pay for their dependent children.